             PREPARING FINANCIAL REPORTS FOR
               MARINE CORPS APPROPRIATIONS

Report No. D-2001-097                      April 12, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CERPS                 Centralized Expenditures and Reimbursements Processing System
DFAS                  Defense Finance and Accounting Service
FMS                   Financial Management Service
SABRS                 Standard Accounting, Budgeting and Reporting System
                        Office of the Inspector General, DoD
Report No. D-2001-097                                                     April 12, 2001
   (Project No. D2000FC-0283.002)

                         Preparing Financial Reports for
                          Marine Corps Appropriations

                                    Executive Summary

Introduction. This audit was performed in response to the Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994. This is
the third report on our audit of the FY 2000 Department of the Navy General Fund
financial statements. The first report discusses the journal entries made to support the
departmental reporting for the Marine Corps. The second report was our endorsement
of the Naval Audit Service disclaimer of opinion on the FY 2000 General Fund
financial statements. The Defense Finance and Accounting Service (DFAS) Cleveland
and DFAS Kansas City provides finance and accounting support to the Navy and
Marine Corps, including preparation of monthly financial reports and year-end financial
statements. DFAS Kansas City maintains accounting records for 15 Marine Corps
appropriations and reports Marine Corps financial data to DFAS Cleveland for official
Department of the Navy financial reporting. The FY 2000 Department of the Navy
General Fund financial statements reported a net cost of operations of $11.5 billion and
total outlays of $10.8 billion by the Marine Corps.

Objective. The overall audit objective was to determine the reliability and
effectiveness of processes and procedures used to prepare Navy General Fund financial
statements. Specifically, for this part of the audit, we audited the processes and
procedures that DFAS Kansas City used to prepare monthly and year-end financial
reports for Marine Corps appropriations. Our review of the management control
program for departmental and financial statement reporting for DFAS Cleveland and
DFAS Kansas City will be reported in a future audit report.

Results. DFAS Kansas City has spent more than $21 million on the Standard
Accounting, Budgeting and Reporting System (SABRS) modifications, redesign, and
enhancements from FY 1997 through FY 2000 to provide full accounting support for
the Marine Corps general funds. However, DFAS Kansas City did not use SABRS
general ledger account balances to prepare monthly and year-end financial reports or
utilize other enhancements built into SABRS. DFAS Kansas City used a complex,
manual process that increased the potential for errors and did not further the objective
of moving toward transaction-based, general ledger driven accounting systems to
produce financial reports and statements. Also, not relying on general ledger account
balances resulted in missed opportunities to capitalize on the inherent efficiencies of
using a single system. For details of the audit results, see the Finding section of
the report. Appendix A discusses the audit scope and methodology and prior
audits related to the audit objective.

Summary of Recommendations. We recommend that the Director, DFAS
Kansas City, use SABRS to prepare monthly and year-end reports for Marine
Corps appropriations, and evaluate the effectiveness of SABRS to process
financial data accurately through the U.S. Government Standard General
Ledger. Specifically, DFAS Kansas City should complete the work necessary
for SABRS to automatically produce financial reports, use SABRS general
ledger account data to prepare the required financial reports, and reconcile any
differences between the SABRS general ledger account data and other sources of
financial information. DFAS Kansas City should also post and maintain
adjustments to financial records in SABRS using journal entries. The DFAS
Kansas City SABRS Program Office should report any SABRS enhancement
deficiencies that affect financial report preparation to senior DFAS and Marine
Corps officials.

Management Comments. DFAS concurred with the recommendations to
utilize SABRS in the preparation of financial reports. In addition, DFAS stated
that the transition from manual to general ledger account driven reports would
be performed once each appropriation is balanced within SABRS. To aid in the
balancing and reconciliation process, DFAS indicated that a team of accountants
was working to reconcile SABRS data and related files. In addition, a module
has been implemented in SABRS that will allow for recording of adjusting
entries in the correct reporting period. DFAS indicated that any SABRS
deficiencies noted through a standard problem reporting process will be reported
to DFAS Kansas City, DFAS Arlington, and the Marine Corps. See the Finding
section for the complete discussion of management comments and the
Management Comments section for the complete text of the management
comments.




                                     ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objective                                                      2

Finding
     Preparing Financial Reports for Marine Corps Appropriations    3

Appendixes
     A. Audit Process
         Scope and Methodology                                      9
         Prior Coverage                                            10
     B. Report Distribution                                        11

Management Comments
     Defense Finance and Accounting Service                        13
Background
    Chief Financial Officers Act. This audit was performed in response to Public
    Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
    as amended by Public Law 103-356, the “Federal Financial Management Act of
    1994,” October 13, 1994. This is the second report on our audit of the
    FY 2000 Department of the Navy General Fund financial statements. The first
    report discusses the journal entries made to support the departmental reporting
    for the Marine Corps.

    Role of the Defense Finance and Accounting Service. Defense Finance and
    Accounting Service (DFAS) Cleveland and DFAS Kansas City provide finance
    and accounting support to the Navy and Marine Corps, respectively. DFAS
    maintains departmental accounting records and prepares monthly financial
    reports and year-end financial statements using data from field organizations.
    DFAS Kansas City maintains accounting records for 15 Marine Corps
    appropriations and reports Marine Corps financial data to DFAS Cleveland for
    official Department of the Navy financial reporting. The FY 2000 Department
    of the Navy General Fund financial statements reported Marine Corps assets of
    $8.2 billion and liabilities of $1.8 billion. The Marine Corps also reported a net
    cost of operations of $11.5 billion and total outlays of $10.8 billion.

    Standard Accounting, Budgeting and Reporting System. The Standard
    Accounting, Budgeting and Reporting System (SABRS) has been in use by the
    Marine Corps since 1986 and undergone several upgrades and redesigns. When
    enhancements are fully implemented, DFAS believes that SABRS should:

           • meet the Standard Fiscal Code requirements,

           • eliminate five general fund accounting systems,

           • support the Chief Financial Officers Act reporting requirements by
             providing accurate and auditable data using the U.S. Government
             Standard General Ledger,

           • provide full accounting support for all general funds at the command
             level, and

           • support the departmental-level accounting and reporting process.

    Functions of a General Ledger Accounting System. The general ledger, as
    the central function of a core financial system, is the highest level of
    summarization within the system. As the ultimate overall control for capturing
    the effects of financial events, the general ledger ensures that debits equal
    credits for every recorded transaction in a single journal entry. The general
    ledger maintains accounts for assets, liabilities, equity, revenues, expenses,
    gains, losses, budgetary data, and memorandum information.

    The general ledger defines the chart of accounts and transaction posting rules,
    and is used to update multiple accounts, including budgetary and proprietary
    accounts for a single transaction or financial event. The general ledger provides

                                        1
    for entering journal entries to post transactions, record account adjustments, and
    perform periodic closings. The general ledger should be used to produce
    external financial reports.

    The Department of the Navy and DFAS need transaction-driven, general ledger
    accounting systems capable of accurately reporting the value of assets and
    liabilities. The auditors have issued disclaimers of opinion on the FY 1996
    through FY 2000 Department of the Navy General Fund financial statements, in
    large part because of the lack of transaction-driven, general ledger accounting
    systems. SABRS was designed to be such a system for the Marine Corps
    accounting processes.

    Monthly and Year-end Financial Reports. DFAS Kansas City prepared the
    “Report on Budget Execution” [SF 133], the “Appropriation Status by Fiscal
    Year Program and Subaccounts” [DD 1002], and the “Report on
    Reimbursements” [DD 725] each month for each of the 15 Marine Corps
    appropriation accounts. The “Year End Closing Statement” [Financial
    Management Service (FMS) 2108] was prepared at year end. Those reports
    were used as source documents for preparation of year-end financial statements
    for Marine Corps accounts.

            SF 133. The SF 133 provides financial data on budget authorization and
    obligations. DFAS Kansas City provided the SF 133 to DFAS Cleveland and to
    Headquarters Marine Corps in a spreadsheet format.

            DD 1002. The DD 1002 provides information on appropriations,
    obligations, and disbursements. DFAS Kansas City provided the DD 1002 to
    DFAS Cleveland in both a spreadsheet and database format and to Headquarters
    Marine Corps in a spreadsheet format only.

           DD 725. The DD 725 provides information on reimbursement
    receivables from various sources. DFAS Kansas City provided the DD 725 to
    DFAS Cleveland and Headquarters Marine Corps in a spreadsheet format.

           FMS 2108. The FMS 2108 provides financial data on the status of
    resources by fiscal year for the Marine Corps appropriations. DFAS Kansas
    City provided the FMS 2108 to DFAS Cleveland and Headquarters Marine
    Corps in a spreadsheet format.

Objective
    The overall audit objective was to determine the reliability and effectiveness of
    processes and procedures used to prepare Navy General Fund financial
    statements. Specifically, for this part of the audit, we audited the processes and
    procedures DFAS Kansas City used to prepare monthly and year-end financial
    reports for Marine Corps appropriations. Our review of the management
    control program related to the overall audit objective will be reported in a future
    audit report. Appendix A discusses the audit scope and methodology related to
    the audit objective.



                                         2
           Preparing Financial Reports for Marine
           Corps Appropriations
           The DFAS Kansas City did not use SABRS general ledger account
           balances or other enhancements to prepare financial reports, even though
           DFAS has spent approximately $21.8 million on SABRS modifications,
           redesign, and enhancements since 1997 to provide full accounting
           support for the Marine Corps general funds. DFAS Kansas City did not
           use SABRS because procedures for fully utilizing SABRS had not been
           established and because SABRS could not automatically produce all
           required reports. As a result, DFAS Kansas City used a complex,
           manual process that increased the potential for errors and did not further
           the objective of moving toward transaction-based, general ledger driven
           accounting systems to produce financial reports and statements. Not
           using the capabilities of SABRS also resulted in missed opportunities to
           capitalize on the efficiencies provided by SABRS.

Standard Accounting, Budgeting and Reporting System
    SABRS was selected and funded in 1995 as the migratory accounting system for
    the Marine Corps General Fund. Marine Corps organizations in the field used
    SABRS to input transaction data, and for FY 2000, SABRS was capable of
    providing DFAS Kansas City with general ledger account data. One SABRS
    enhancement was the journal entry module. However, the DFAS Kansas City
    used limited general ledger account data and the journal entry module did not
    adequately support monthly account entries made during FY 2000. Although
    SABRS was intended to standardize the financial reporting process, SABRS
    could produce only one of the four required reports in FY 2000.

    Selection and Funding. SABRS was selected as the migratory accounting
    system for the Marine Corps General Fund in 1995, even though the system
    required major redesign and modification efforts. Since selection,
    approximately $21.8 million was expended through FY 2000 for various
    enhancements and upgrades. The DoD Financial Management Improvement
    Plan estimates an additional $5.5 million for enhancements is needed to correct
    problems through FY 2004. SABRS was selected as the migratory system in
    part because it was already in place at Marine Corps sites. Marine Corps
    organizations in the field were using SABRS to input transaction data; however,
    DFAS Kansas City used limited data in SABRS general ledger accounts to
    prepare financial reports, such as general ledger account balances for Accounts
    Receivable and Accounts Payable. In addition, DFAS Kansas City utilized
    other SABRS products because SABRS general ledger account balances were
    not balanced and reconciled.

    Standard General Ledger Accounts in SABRS. During FY 2000, SABRS
    was capable of providing general ledger account data necessary for monthly and
    year-end financial report processing. However, DFAS Kansas City reported
    that the SABRS general ledgers were not balanced and reconciled. Therefore,
    DFAS Kansas City relied on a manual process to produce financial reports.


                                        3
Additional enhancements to SABRS beginning in FY 2001 were expected to
automate and improve the monthly financial report processing even more. The
SABRS enhancements, when fully implemented, should be U.S. Government
Standard General Ledger compliant and improve the ability of SABRS to trace
account balances to source transactions. DFAS Kansas City reported that the
general ledger account balances did not accurately reflect the financial data
entered by Marine Corps organizations because of problems with the SABRS
general ledger accounts. Therefore, DFAS Kansas City retrieved data from
other SABRS files because they believed the data more accurately represented
the actual transactions entered. If SABRS general ledger account data was used
to prepare financial reports, DFAS Kansas City could have identified variances
between general ledger balances and other sources of data. However, because
no specific requirement to expand the use of SABRS had been established,
accounting personnel continued using manual procedures they were accustomed
to using. DFAS Kansas City should discontinue using the manual processes and
rely on the SABRS general ledger account balances for preparing financial
reports and statements. Only by using the SABRS general ledger accounts can
SABRS be tested and problems identified and corrected.

SABRS Journal Entry Module. DFAS Kansas City did not enter journal entry
adjustments into SABRS, thus causing the data in the SABRS accounting system
to be different than what was reported on monthly financial reports. Personnel
from the SABRS Program Office at DFAS Kansas City stated that the
adjustments could have been entered into SABRS during FY 2000 using the
journal entry module. However, the version of the journal entry module
available in SABRS during FY 2000 could not accommodate monthly
accounting adjustments because all entries posted would be considered
permanent, when in actuality the entries were temporary and impacted only the
current month accounting activity. Entering journal entries into SABRS should
have allowed adjustment data to be maintained in the general ledger while
making the necessary adjustment for the monthly financial reports. The journal
entry option in the SABRS program allowed for an explanation of why the
journal entry was required, what accounts would be affected, the amount of the
adjustment, the appropriation affected, and other related information. When the
SABRS enhancements are completed in FY 2001, use of the journal entry
module for temporary journal entries would provide an audit trail of transactions
that supports an account balance.

Capability of SABRS to Produce Financial Reports. SABRS was intended to
standardize the report preparation process with minimal amount of manual
processing. The production of automated monthly financial reports using
U.S. Government Standard General Ledger account balances was under
development during FY 2000, therefore, DFAS Kansas City accounting
personnel used a manual process to produce monthly reports. Preparing
financial reports using the automated general ledger process would allow DFAS
Kansas City to identify variances and help correct deficiencies in the automatic
production of financial reports using SABRS general ledger account balances.
The SABRS Program Office had developed the DD 1002 report and was in the
process of establishing the SF 133, the DD 725, and the FMS 2108 reports in
SABRS using general ledger accounts. The SABRS Program Office needs to
expedite automation of the remaining financial report. The automated reporting



                                    4
     capabilities of SABRS will improve the reliability of the financial reports. The
     time-consuming, manual processes should be phased out as the automated
     financial reporting capabilities are implemented.

Preparation of Financial Reports
     DFAS Kansas City relied on complex, manual processes to prepare monthly and
     year-end financial reports using financial data from a variety of sources. The
     sources included, but were not limited to, data from the Centralized
     Expenditures and Reimbursements Processing System (CERPS), data obtained
     by querying SABRS, and hard copy documentation obtained from Marine Corps
     organizations. The general ledger account balances from SABRS were not used
     to enter financial data directly into any of the financial reports.

     Sources of Financial Data. The manual processing of financial data included
     entering the data received into at least 12 separate spreadsheets and referencing
     those spreadsheets to a baseline-input spreadsheet. DFAS Kansas City produced
     the monthly and year-end financial reports from the baseline-input spreadsheet
     and the supporting referenced spreadsheets. Preparing financial reports using
     multiple spreadsheets, prepared manually from multiple data sources instead of
     using available general ledger account data, circumvented the objective of using
     transaction-based, general ledger driven systems to produce financial statements,
     and made reports more prone to errors.

               Financial Data Processed From CERPS. DFAS Cleveland sent
     CERPS data to DFAS Kansas City on a computer compact disk and
     DFAS Kansas City personnel manually entered that data into the spreadsheets
     used to prepare monthly financial reports. The CERPS data was also available
     in SABRS. However, the DFAS Cleveland data and the SABRS data did not
     always agree. For example, as of September 2000, DFAS Cleveland reported
     $155 million more in CERPS for Appropriation 1106 (Operation and
     Maintenance, Marine Corps) than SABRS. The DFAS Kansas City Financial
     Reporting Branch used the DFAS Cleveland-provided CERPS data because that
     data was the expenditure data DFAS Cleveland would use to prepare the official
     Marine Corps monthly reports. The Financial Reporting Branch did not analyze
     or reconcile differences between the two sources of CERPS. Therefore, the
     financial data used to prepare the September 2000 financial reports were not
     supported by the accounting system. We did not review other months in
     FY 2000 to determine whether additional differences existed.

               The May 2000 CERPS data for Appropriation 1108 (Reserve
     Personnel, Marine Corps) from DFAS Cleveland and the CERPS data in
     SABRS had no differences. However, even though there were no differences,
     DFAS Kansas City used the CERPS data provided by DFAS Cleveland instead
     of data from the SABRS general ledger account balances, which contained
     CERPS data. DFAS Kansas City should rely on the data in SABRS and
     reconcile any differences between sources of data when preparing monthly
     financial reports. We did not review other months in FY 2000 to determine
     whether differences existed.




                                         5
          Financial Data Processed From SABRS. DFAS Kansas City,
Financial Reporting Branch, relied on queries from SABRS to provide
obligation data rather than using general ledger account balances in SABRS to
prepare the financial reports. As a result, DFAS Kansas City missed taking
advantage of the controls inherent in the SABRS general ledger and achieving
efficiencies offered by SABRS. In addition, the continued reliance on manual
processes did not further the objective of moving toward the ultimate goal of
transaction-based, standard general ledger driven systems to produce financial
reports and statements.

          Financial Data Processed From Hard Copy Documentation.
Marine Corps organizations provided hard copy documentation to DFAS Kansas
City to include U.S. Treasury warrants, apportionment schedules, funding
authority documents, and other memoranda impacting financial data. DFAS
Kansas City manually entered information into spreadsheets from the hard copy
documents rather than using funding data available in the general ledger Marine
Corps organizations had already entered. Manual processing of Marine Corps
data caused a disconnect between the Marine Corps effort to enter accurate and
complete data into SABRS and the DFAS Kansas City effort to prepare financial
reports and statements.

Manually Preparing the SF 133. DFAS Kansas City used nonstandard
processes to prepare the SF 133 for each of the 11 Marine Corps appropriations
and the 4 Marine Corps shared appropriations with the Navy. For example, the
processes used to prepare the SF 133s for Appropriations 1106 and 1108 were
different. Different sources of information were used to populate the
spreadsheets for each appropriation. In addition, different processes were used
to populate the final input spreadsheets used in producing the SF 133 reports.
Such differences may have resulted in unreliable financial data on the SF 133
reports. Inconsistencies in processes used to produce the SF 133 reports for the
appropriations could have been avoided by using the SABRS general ledger
account balances, which should provide accounting controls and consistency.
        Preparing SF 133s for Appropriation 1106. Accounting personnel
used seven separate spreadsheets to prepare the SF 133 spreadsheet for
Appropriation 1106. DFAS Kansas City sent the SF 133 spreadsheet to
DFAS Cleveland and Headquarters Marine Corps. The majority of the data on
the SF 133 spreadsheet was referenced to the “1106 Input” spreadsheet. A total
of six spreadsheets fed financial data into the 1106 Input spreadsheet. Only
59 percent of the data used to populate the 1106 Input spreadsheet included
references to the six spreadsheets. The remaining 41 percent of the data
represented additional manual input, including manual journal entry
adjustments.

       Preparing SF 133s for Appropriation 1108. Accounting personnel
used two spreadsheets to prepare the SF 133 spreadsheet for Appropriation
1108, which was sent to DFAS Cleveland and Headquarters Marine Corps.
Data on the SF 133 spreadsheet was referenced to the “1108 Input” spreadsheet.
About 97 percent of the data on the 1108 Input spreadsheet was manually
entered from


                                    6
    DFAS Cleveland-provided CERPS data, SABRS queries, and hard copy
    documentation. The remaining 3 percent of the data was provided from the
    CERPS spreadsheet prepared by the accountant.

Conclusion
    DFAS Kansas City has worked since 1995 to implement an accounting system
    that would meet the requirements for financial reporting. DFAS has spent about
    $21.8 million on modifications, redesign, and enhancements to SABRS but has
    failed to fully utilize the capabilities of that system. Rather than use the existing
    capabilities in SABRS, DFAS Kansas City used manual, nonstandard processes
    that do not provide the accuracy needed to prepare financial reports along with
    scarce resources that could be used to perform reconciliations, analyses, and
    other necessary functions. As a result, reports are more susceptible to errors.
    The Financial Reporting Branch and the SABRS Maintenance Division should
    work together to expedite the progress of automated financial report preparation
    and to determine how to more effectively use the other automated capabilities of
    SABRS. By using the expected capabilities of SABRS, DFAS will be better
    able to quickly determine whether the enhancements will provide reliable
    information and reduce the use of time-consuming manual processes, which
    increase the potential for errors. DFAS plans to spend an additional
    $5.5 million through FY 2004 to further enhance SABRS capabilities. With
    continued funding of SABRS through FY 2004, DFAS Kansas City needs to
    demonstrate that SABRS can provide full accounting support for the Marine
    Corps general funds.

Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service
    Kansas City, establish procedures and milestones to use the Standard
    Accounting, Budgeting and Reporting System (SABRS) to prepare monthly
    and year-end reports for Marine Corps appropriations, and evaluate the
    effectiveness of the SABRS to process financial data accurately through the
    U.S. Government Standard General Ledger. Specifically, the Defense
    Finance and Accounting Service Kansas City should:

          1. Complete the work necessary for SABRS to automatically produce
    all financial reports using U.S. Government Standard General Ledger
    accounts.

         Management Comment. DFAS concurred and stated that continuing
    efforts are being made to develop report tools in SABRS for production of
    monthly reports, and that SABRS is U.S. Government Standard General Ledger
    compliant. DFAS indicated that the recommendation would be fully
    implemented by April 30, 2001.




                                          7
    2. Use SABRS general ledger account data to prepare all required
financial reports.

     Management Comment. DFAS concurred and indicated that as each
appropriation is balanced in SABRS, the preparation of financial reports will be
transitioned from a manual to an automated process by way of the SABRS
Management Analysis Retrieval Tools System. DFAS indicated an estimated
completion date of September 30, 2002, for implementation of this
recommendation.

    3. Reconcile any differences between SABRS general ledger account
data and other sources of financial information.

     Management Comment. DFAS concurred and stated that a team of
accountants at DFAS is dedicated to the balancing and reconciliation of SABRS
data and related files, and will continue those efforts until SABRS is reconciled
and the recording of financial data is consistent with system design. DFAS
indicated an estimated completion date of September 30, 2002, for the
implementation of the recommendation.

    4. Post and maintain any adjustments to financial records in SABRS
using journal entries.

     Management Comment. DFAS concurred and indicated that a journal
voucher module has been added to SABRS that will allow for posting entries
into the correct posting period. DFAS also indicated that this recommendation
has already been implemented.

    5.     Report any of SABRS enhancement deficiencies, affecting
financial report preparation, to senior Defense Finance and Accounting
Service and Marine Corps officials.

     Management Comment. DFAS concurred and stated that any deficiencies
identified will be reviewed and addressed by the DFAS Kansas City Accounting
Systems Division, who will in turn notify senior DFAS and Marine Corps
officials. DFAS indicated that this recommendation has already been
implemented.




                                    8
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The overall audit objective was to determine the reliability
    and effectiveness of processes and procedures used to prepare Navy General
    Fund financial statements. Specifically, for this part of the audit, we focused on
    the processes and procedures used to prepare monthly financial reports for
    Marine Corps appropriations. The FY 2000 Department of the Navy General
    Fund financial statement showed a net cost of operations of $94.1 billion, which
    included $11.3 billion of Marine Corps costs and total outlays of $87.9 billion,
    including $10.8 billion in outlays by the Marine Corps.

    We reviewed the existing capabilities of the SABRS accounting system for
    producing monthly financial reports. However, we did not do a detailed
    analysis of the SABRS capabilities and account balances because the
    enhancements, planned to begin in FY 2001, should improve the reporting
    process. We also observed the manual process that DFAS Kansas City used to
    prepare the monthly financial reports that support year-end financial statement
    preparation. We reviewed the procedures used by DFAS Kansas City, Financial
    Reporting Branch, to prepare monthly and year-end financial reports such as the
    SF 133, the DD 1002, the DD 725, and the FMS 2108 during FY 2000. The
    scope of the audit was limited, in that we did not review the management
    control program as it pertained to the overall objective. The results of our
    management control review will be provided in a future audit report.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Act, the Secretary of Defense annually establishes
    DoD-wide corporate-level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    objectives and goal, subordinate performance goal, and performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2)
           on financial statements. (01−

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.




                                        9
    Use of Computer-Processed Data. We did not use computer-processed data in
    accomplishing the objectives of this project.

    Audit Type, Period, and Standards. We performed this financial-related audit
    from June 2000 through January 2001, in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD. Further details are available on request.

Prior Coverage
    The General Accounting Office; the Inspector General, DoD; and the Naval
    Audit Service have conducted multiple reviews related to financial statement
    issues. General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports
    can be accessed on the Internet at http://www.hq.navy.mil/navalaudit.




                                      10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Kansas City

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                           11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)

House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         12
Defense Finance and Accounting Service
 Comments




                      13
14
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.


F. Jay Lane
Salvatore D. Guli
Marvin L. Peek
Linda A. Pierce
Edward A. Blair
